APPENDIX A
STATE OF LOUISIANA
COURT OF APPEAL, SECOND CIRCUIT
430 Fannin Street
Shreveport, LA 71101
(318) 227-3700
[STAMP]
Illegible
Glenn Louis Langley
LANGLEY PARKS HORTON ET AL
401 Market St., Suite 1100
Shreveport, LA 71101
James Dell Southerland
SOUTHERLAND & SIMMONS
P. O. Box 338
Benton, LA 71006-0000
Patrick Richmond Jackson
PATRICK R. JACKSON, APLC
4442 Viking Drive, #100
Bossier City, LA 71111
Jill Sessions
Bossier Parish Clerk of Court
P. O. Box430
Benton, LA 71006-0430
David G. Sanders
1a

LOUISIANA DEPT. OF JUSTICE
P. O. Box 94005
Baton Rouge, LA 70804-9005
William Alan Pesnell
THE PESNELL LAW FIRM, APLC
P. O. Box 1794
Shreveport, LA 71166-1794
Julianna Petchak Parks
LANGLEY PARKS HORTON ET AL
401 Market St., Suite 1100
Shreveport, LA 71101
Eric R. Harrington
Ad Hoc Judge - 26th JDC
P. O. Box 310
Benton, LA 71006
NOTICE OF JUDGMENT AND
CERTIFICATE OF MAILING
May 22, 2019
DOCKET Number: CA 18-52646
WILLIAM ALAN PESNELL AND
CHRISTOPHER HOLDER
VERSUS
JILL SESSIONS, CLERK OF COURT,
JENNIFER BOLDEN, CERTIFIED DIGITAL
2a

REPORTER, AND THE JUDGES OF THE
26TH JUDICIAL DISTRICT COURT:
MICHAEL O. CRAIG, JEFF R. THOMPSON,
JEFF COX, E. CHARLES JACOBS,
MICHAEL NERREN, AND PARKER O. SELF
NOTICE IS HEREBY GIVEN that the attached
judgment and written opinion was rendered this date
and a copy was mailed to the trial judge, the trial court
clerk, all counsel of record and all parties not
represented by counsel as listed above.
FOR THE COURT
Clerk of Court

3a

Judgment rendered May 22, 2019.
Application for rehearing may be filed
within the delay allowed by Art. 2166,
La. C.C.P.
No. 52,646-CA
COURT OF APPEAL
SECOND CIRCUIT
STATE OF LOUISIANA
WILLIAM ALAN PESNELL
Plaintiffs-Appellants
and CHRISTOPHER HOLDER
versus
JILL SESSIONS, CLERK OF Defendants-Appellees
COURT, JENNIFER BOLDEN,
CERTIFIED DIGITAL
REPORTER, AND THE JUDGES
OF THE 26TH JUDICIAL
DISTRICT COURT: MICHAEL
O. CRAIG, JEFF R. THOMPSON,
JEFF COX, E. CHARLES
JACOBS, MICHAEL NERREN
and PARKER O. SELF
Appealed from the
Twenty-Sixth Judicial District Court for the
Parish of Bossier, Louisiana
Trial Court No. 151,118
Honorable Eric R. Harrington (Ad Hoc), Judge
4a

THE PESNELL LAW FIRM, A.P.L.C.
By: Billy R. Pesnell
Counsel for Appellants,
J. Whitney Pesnell
In Proper Person &
W. Alan Pesnell
Christopher Hatch
JEFF LANDRY
Attorney General
DAVID G. SANDERS
Assistant Attorney General
PATRICK R. JACKSON

Counsel for Appellees,
Judges of the 26th
Judicial District Court

Counsel for Appellee
Jennifer Bolden,
Certified Digital
Reporter

LANGLEY, PARKS & MAXWELL
LLC
Counsel for Appellee
By: Glenn L. Langley
Jill Sessions,
Julianna Petchak Parks
Clerk of Court
JAMES D. SOUTHERLAND
*****
Before PITMAN, STONE, and BLEICH (Ad Hoc), JJ.
PITMAN, J.
Plaintiffs-Appellants William Alan Pesnell and
Christopher Holder appeal the trial court's judgment
sustaining the exceptions of no cause of action filed by
Defendants-Appellees Jill Sessions, Clerk of Court;
5a

Jennifer Bolden, certified digital reporter; and the
judges of the 26th Judicial District Court: Michael O.
Craig, Jeff R. Thompson, Jeff Cox, E. Charles Jacobs,
Michael Nerren and Parker O. Self ("the Judges").
Sessions has filed a motion to dismiss for lack of
jurisdiction and an exception of res judicata. For the
following reasons, we grant Sessions's motion to
dismiss and affirm the judgment of the trial court as to
Bolden and the Judges.
FACTS
Holder was convicted of the second degree
murder of his mother. On appeal, this court affirmed
his conviction and sentence. State v. Holder, 50,171
(La. App. 2 Cir. 12/9/15), 181 So. 3d 918, writs denied,
16-0092 (La. 12/16/16), 211 So. 3d 1166, and 16-0056
(La.12/16/16), 212 So. 3d 1176. Holder's uncle opened
the intestate succession of Holder's mother and asked
that Holder be declared unworthy to inherit from his
mother. The trial court granted a motion for summary
judgment, finding Holder was convicted of the
intentional killing of his mother. This court affirmed
the judgment of the trial court. In re Succession of
Holder, 50,824 (La. App. 2 Cir. 8/10/16), 200 So. 3d
878, writ denied, 16-1694 (La. 12/16/16), 212 So. 3d
1169.
On September 22, 2016, Pesnell and Holder filed
against Defendants a petition to declare provision of
public records law unconstitutional in substance and
as applied, and to compel production of public record

6a

for inspection and testing.1 They claimed that persons
who were present at Holder's criminal trial did not
believe that the transcript of the trial was correct.
They stated that an objection was missing from the
transcript and language attributed to the prosecutor
was not correct and that these substantive issues could
alter the outcomes of the criminal and succession
proceedings. They argued that they had a right to
listen to, review and test the data file recording of the
criminal trial ("the recording").
The petition detailed Pesnell's efforts to acquire
the recording. He sent a letter to Sessions as the clerk
of court and was advised to make the request to the
court reporter. He requested the recording from
Bolden, the court reporter, and received a response
from Melissa Fox, the court administrator and senior
staff attorney for the 26th Judicial District Court. Fox
advised him that the request was not covered by the
Public Records Law, citing La. R.S. 44:4(47) and the
Listening to Recordings Policy of the 26th Judicial
District Court ("the court's policy").2 Pesnell then

1

Plaintiffs amended their petition to add the State of
Louisiana as a defendant. The State filed an exception of lack of
subject matter jurisdiction and no cause of action. The trial court
granted the State's exceptions, and on appeal, this court affirmed
the trial court's sustaining of these exceptions. Pesnell v. Sessions,
51,871 (La. App. 2 Cir. 2/28/18). 246 So. 3d 686.
2

The court's policy states:

It is the position of the 26th Judicial
District Court that no party, attorney or witness,

7a

requested to listen to the recording pursuant to the
court's policy, and Fox responded that Judge Nerren
denied his request, informing him that any questions
as to the content and form of the recording should be
presented to the court of appeal.
Plaintiffs argued that La. R.S. 44:4(47) does not
provide an applicable exception to the Public Records
Law in this case and that the recording is a public
record subject to public review. They contended that if
La. R.S. 44:4(47) provides an exception in this case,
then the statute is unconstitutional because it denies
due process to litigants and denies public access to
records of public events. Plaintiffs also found fault
with the court's policy. They argued that Defendants
should be ordered to turn over a copy of the recording
or any other interested person, be allowed to
listen to the playback of any recording of any
court proceeding. Under extraordinary
circumstances, with permission from the Court,
exceptions can be made to hear excerpts of
proceedings. If permission is granted, the court
reporter should listen to the recording first to
ensure that there is no audible conversation
between attorney and client. Due to the
sensitivity of the digital recording, conversations
between counsel and client can potentially be
audible on the recording, which playback of said
conversation could potentially breach
attorney/client privilege. This policy excludes
judges and court staff that have to rely on the
recording for preparation of documents,
transcripts or subsequent court proceeding.
However. the information gleaned from listening
of recorded proceedings is to remain confidential.

8a

or, in the alternative, that they should be allowed to
review the recording for comparison to the transcript.
On October 17, 2016, the Judges filed an
exception of no cause of action. They argued that
because the Public Records Law does not apply to the
recording sought, Plaintiffs have no right of access to
it. They stated that Plaintiffs had no right to access
the recording pursuant to the court's policy because
the court denied permission. They contended that the
recourse available to Plaintiffs is to obtain an order
from the appellate court, not to sue the Judges. The
Judges noted Plaintiffs' attempt to have La. R.S.
44:4(47) declared unconstitutional and responded that
they have no interest in, or enforcement powers with
respect to, the Public Records Law.
On November 2, 2016, Sessions filed an
exception of no cause of action. She stated that, as
clerk of court, she is the keeper of the written records
of the trial, but not the keeper of, and does not have
access to, the electronic recordings of the trial.
On November 18, 2016, Bolden filed an
exception of no cause of action. She stated that she is
not the custodian of the recording, that she has no
discretion to secure the recording and that all of her
duties are ministerial.
On November 28, 2016, Plaintiffs filed an
opposition to the exceptions of no cause of action. On
December 13, 2016, the trial court filed a judgment
maintaining the exception of no cause of action filed by
9a

Sessions and dismissing Plaintiffs' proceedings against
Sessions.
On December 23, 2016, the trial court signed a
judgment. It stated that Bolden is not a proper party
defendant and dismissed Plaintiffs' claims against her.
It found that the Judges are the custodians of the
records sought but that pursuant to La. R.S. 44:4(47)
and the court's policy, Plaintiffs have no right to the
recording. Therefore, it found that no cause of action
had been stated and dismissed Plaintiffs' claims under
the Public Records Law. The trial court reserved for a
later date the claims that La. R.S. 44:4(47) and the
court's policy are unconstitutional.
On January 11, 2017, Plaintiffs filed a motion
for new trial or rehearing as to the December 23, 2016
judgment and argued that the judgment was
erroneous.
On March 3, 2017, Plaintiffs filed a motion to
appeal the December 23, 2016 judgment.
On appeal, this court reversed the exceptions of
no cause of action filed by Sessions, Bolden and the
Judges and remanded the matter for further
proceedings, i.e., a ruling on the constitutionality of
La. R.S. 44:4(47) and for further relief if necessary.
Pesnell v. Sessions, 51,871 (La. App. 2 Cir. 2/28/18),
246 So. 3d 686.
On remand, a hearing was held on July 6, 2018,
as to the constitutionality of La. R.S. 44:4(47). On
10a

August 18, 2018, the trial court signed a ruling and
judgment sustaining the exceptions of no cause of
action to the extent that they are based on La. R.S.
44:4(47). It found that Plaintiffs failed to prove that
La. R.S. 44:4(47) is unconstitutional as applied to them
and that their petition failed to state a cause of action.
It noted that Plaintiffs emphasized their need for the
recording based on due process and other
constitutional rights. It found that a records custodian
is prohibited from inquiring as to a person's reason for
requesting public records under the Public Records
Law and, therefore, applied La. R.S. 44:4(47) to
Plaintiffs' request as it would be applied to any other
member of the public's request. The trial court found
that La. R.S. 44:4(47) validly serves to protect the
constitutional privacy rights of all litigants. It
explained that if an audio recording could be disclosed
to any person requesting it, every comment picked up
by the recording device, including whispered
conversations between a defendant and his counsel or
a sidebar conference with the judge, would become a
public record. It assumed that this is why the official
record of a court proceeding is a certified transcript,
not an unedited, uncensored recording. It also found
that La. R.S. 44:4(47) is not overly broad and that it
conforms to the intent and purpose of the statute.
Plaintiffs appeal the August 18, 2018 judgment.
SESSIONS'S MOTION TO DISMISS
On February 22, 2019, Sessions filed, with this
court, a motion to dismiss for lack of jurisdiction and
11a

an exception of res judicata. She noted that Plaintiffs
did not timely file a motion to appeal the December 13,
2016 judgment in which the trial court granted her
exception of no cause of action and dismissed
Plaintiffs' proceedings against her. She stated that
although this court did not have jurisdiction as to the
December 13, 2016 judgment, it reversed the judgment
in Pesnell v. Sessions, supra. She filed an application
for rehearing; and, in response, Plaintiffs admitted
that the judgment dismissing her from the action was
final prior to the appeal of the other judgments, that
she should not have been a party to the appeal and
that her motion for rehearing should be granted. This
court denied Sessions's motion for rehearing. She
argued that as the December 13, 2016 judgment was
not appealed within the appeal delays and is a final
judgment, the decision is res judicata. Therefore, she
contended that she should be dismissed from the
instant appeal. On March 19, 2019, this court filed an
order referring these matters to the merits of the
appeal.
Plaintiffs did not file a motion to appeal the
December 13, 2016 judgment within the time delays
provided in La. C.C.P. arts. 2087 and 2123. Therefore,
the December 13, 2016 judgment, which dismissed
Plaintiffs' proceedings against Sessions, is a final
judgment and conclusive between the parties. La. R.S.
13 :4231.
Accordingly, we grant Sessions's motion to
dismiss.

12a

PLAINTIFFS' ASSIGNMENTS OF ERROR3
Statutory Construction
In their first assignment of error, Plaintiffs
argue that the trial court erred in dismissing the
claims related to the statutory construction of La. R.S.
44:4(47). They contend that the recording is a public
record. They state that the Public Records Law and
provisions of the Louisiana Constitution that require
a review and complete record of any criminal trial are
to be construed liberally in favor of public access and
that exceptions must be narrowly construed in favor of
disclosure. Plaintiffs contend that the portion of La.
R.S. 44:4(47)(a) that states that the exclusion applies
to any such media used "to report the proceedings or
for the purpose of transcribing into typewriting those
portions of the proceedings required by law or by the
court to be transcribed" means that the recording is
excluded from disclosure until it is transcribed or
reported. Plaintiffs argue that once the proceeding is
transcribed or reported, there is no reason to limit
access, as the contents are transcribed and certified.
They state that this court should limit the exception to
Plaintiffs' reading of the statute and order production
of the recording.
The Judges argue that La. R.S. 44:4(47) is
constitutional and that the recording sought by
Plaintiffs is expressly excepted from being a public
3

Sessions and Bolden both submitted briefs. but did not
respond specifically to each of Plaintiffs' assignments of error.

13a

record. They contend that the legislature had rational
reasons for enacting La. R.S. 44:4(47), i.e., to protect
the physical medium of recording, to prevent the
alteration of the recording and subsequent release to
the public and the need to protect conversations picked
up by the recording device, including those between
attorney and client.
Bolden argues that La. R.S. 44:4(47) should not
be construed to apply only until the recording has been
transcribed but, instead, should not be time-limited.
La. R.S. 44: 1 (A)(2)(a) defines "public records"
as the term is used in the Public Records Law as
follows:
All books, records, writings, accounts,
letters and letter books, maps, drawings,
photographs, cards, tapes, recordings,
memoranda, and papers, and all copies,
duplicates, photographs, including
microfilm, or other reproductions thereof,
or any other documentary materials,
regardless of physical form or
characteristics, including information
contained in electronic data processing
equipment, having been used, being in
use, or prepared, possessed, or retained
for use in the conduct, transaction, or
performance of any business, transaction,
work, duty, or function which was
conducted, transacted, or performed by or
under the authority of the constitution or
14a

laws of this state, or by or under the
authority of any ordinance, regulation,
mandate, or order of any public body or
concerning the receipt or payment of any
money received or paid by or under the
authority of the constitution or the laws
of this state, are "public records", except
as otherwise provided in this Chapter or
the Constitution of Louisiana.
(Emphasis added.)
La. R.S. 44:4(47)(a) provides an exception to La.
R.S. 44(l)(A)(2) and states that the Public Records Law
shall not apply:
To the physical medium or contents of
any electronic storage device including
any compact disc, digital video disc, jump
drive, audio or video cassette tape, or any
other type of electronic storage device, or
to any shorthand or longhand notes or
writings or stenotype paper tapes in the
custody or under the control of a judge,
clerk of court, official court reporter,
deputy official court reporter, or certified
electronic reporter and which are
produced, made, or used by an official
court reporter, deputy official court
reporter, free lance reporter, or certified
electronic reporter in any court of record
of the state during any proceedings
before that court to report the
15a

proceedings or for the purpose of
transcribing into typewriting those
portions of the proceedings required by
law or by the court to be transcribed.
A review of La. R.S. 44:4(47) supports
Defendants' argument that the recording is not a
public record pursuant to the Public Records Law. This
exception to the Public Records Law is not limited to
the time before the recording is transcribed, as argued
by Plaintiffs. To the contrary, the statute provides no
time limitation to the exception to the Public Records
Law. Although Plaintiffs contend that there is no
reason to limit access to the recording once it has been
transcribed, the trial court disagreed and noted that
the exception in La. R.S. 44:4(47) protects the privacy
of all litigants. We find that the trial court did not err
in its interpretation of La. R.S. 44:4(47).
merit.

Accordingly, this assignment of error lacks
Amendment by Statute

In their second assignment of error, Plaintiffs
argue that the trial court erred in holding that the
rights under La. Const. art. XII, §3, may be freely
amended by statute. They state that the trial court
improperly relied on the notion that the legislature
may amend the constitution at will and without regard
for the purposes and meaning of that constitutional
provision.

16a

The Judges argue that the right of public access
to public records is not a right classified as
fundamental in constitutional law. Therefore, the
legislature is empowered, by the constitution itself, to
fashion exceptions to the general right of public access
to government records.
La. Const. art. XII, §3, states: "No person shall
be denied the right to observe the deliberations of
public bodies and examine public documents, except in
cases established by law." (Emphasis added.)
The text of La. Const. art. XII, §3, clearly
authorizes the legislature to establish laws that
provide exceptions to the right to observe the
deliberations of public bodies and examine public
documents. La. R.S. 44:4(47) provides such an
exception.
merit.

Accordingly, this assignrnent of error lacks
Constitutionality and Burden of Proof

In their third assignment of error, Plaintiffs
argue that the trial court erred in failing to shift the
burden of proof to Defendants as to the
constitutionality of La. R.S. 44:4(47). In their fourth
assignment of error, Plaintiffs argue that the trial
court erred in dismissing their petition in light of the
overlap of constitutional considerations under U.S.
Const. Amend. I, V, VI and XIV and La. Const. art. I §
§ 2, 7, 16 and 19. In their fifth assignment of error,
17a

Plaintiffs argue that the trial court erred in finding
that they had failed to carry their burden of proof on
the constitutionality of La. R.S. 44:4(47) and
dismissing their claims.
The Judges argue that the burden of proof
remained at all times on Plaintiffs, that it was
Plaintiffs' burden to overcome the presumption of
constitutionality and that La. R.S. 44:4(47) is
constitutional.
Unless the fundamental rights, privileges and
immunities of a person are involved, there is a strong
presumption that the legislature in adopting a statute
has acted within its constitutional powers. Bd. of
Directors of Louisiana Recovery Dist. v. All Taxpayers,
Prop. Owners, & Citizens of State of La., 529 So. 2d
384 (La. 1988). Therefore, the party challenging the
statute bears the burden of proving it is
unconstitutional. Krielow v. Louisiana Dep't of Agric.
& Forestry, 13-1106 (La. 10/15/13), 125 So. 3d 384; In
re SD., 52,238 (La. App. 2 Cir. 5/23/18), 250 So. 3d
1097. The burden of proof requires the attacking party
to point out a specific constitutional provision that
clearly prohibits the legislature from enacting the
statute at issue. Rhone v. Ward, 39,701 (La. App. 2
Cir. 5/11/05), 902 So. 2d 1258, writ granted, cause
remanded, 05-1651 (La. 1/13/06), 920 So. 2d 217, citing
Pope v. State, 99-2559 (La. 6/29/01), 792 So. 2d 713.
In Pesnell v. Sessions, supra, this court stated
that, on remand, it was incumbent upon Plaintiffs to
prove to the trial court that La. R.S. 44:4(47) is
18a

unconstitutional as applied to them. As the party
challenging the constitutionality of La. R.S. 44:4(47),
Plaintiffs bore the burden of proving its
unconstitutionality, but they failed to overcome the
presumption of constitutionality. As discussed above,
the constitutional provision at issue, i.e., La. Const.
art. XII, §3, clearly allows the legislature to enact the
statute at issue, i.e., La. R.S. 44:4(47). Therefore, the
trial court did not err when it did not shift the burden
of proof to Defendants. Further, it did not err in
determining that Plaintiffs failed to meet their burden
of proof as to the alleged unconstitutionality of La. R.S.
44:4(47).
Although Plaintiffs argue on appeal that La.
R.S. 44:4(47) should be declared unconstitutional on its
face, this court declines to make such a declaration.
The trial court sustained the exceptions of no cause of
action based on Plaintiffs' failure to prove that La. R.S.
44:4(47) is unconstitutional. Any opinion from this
court regarding the constitutionality of La. R.S.
44:4(47) would constitute an advisory opinion, and
appellate courts will not render advisory opinions from
which no practical results can follow. See McChesney
v. Penn, 29,776 (La. App. 2 Cir. 8/20/97), 698 So. 2d
705.
merit.

Accordingly, these assignments of error lack
The Court's Policy
In their sixth assignment of error, Plaintiffs
19a

argue that the trial court erred when it ignored the
court's policy and, in effect, upheld the policy. They
note that if La. R.S. 44:4(47) is constitutional, then
there is no need for the court's policy.
The Judges argue that as La. R.S. 44:4(47) is
constitutional and excludes the information requested
by Plaintiffs as not being a public record, Plaintiffs
have no legal enforceable right to review, listen or
obtain a copy of the recording. They contend that the
court's policy is a reflection of the court's inherent
authority over court records.
In Pesnell v. Sessions, supra, this court
remanded this matter for a ruling on the
constitutionality of La. R.S. 44:4(47). In its August 18,
2018 ruling and judgment, the trial court did not
address the court's policy and, instead, sustained
Defendants' exceptions of no cause of action to the
extent that they were based on La. R.S. 44:4(47). Any
opinion from this court regarding the issue of the
court's policy would constitute an advisory opinion,
and appellate courts will not render advisory opinions
from which no practical results can follow. See
McChesney v. Penn, supra.
Accordingly, this assignment of error is not
properly before this court for review.
CONCLUSION
For the foregoing reasons, we grant the motion
to dismiss filed by Defendant-Appellee Jill Session,
20a

and we affirm the trial court's judgment sustaining the
exceptions of no cause of action filed by DefendantsAppellees Jennifer Bolden and the Judges of the 26th
Judicial District Court: Michael O. Craig, Jeff R.
Thompson, Jeff Cox, E. Charles Jacobs, Michael
Nerren and Parker O. Self. Costs of this appeal are
assessed to Plaintiffs-Appellants William Alan Pesnell
and Christopher Holder.
MOTION TO DISMISS GRANTED;
JUDGMENT OF TRIAL COURT AFFIRMED AS
TO BOLDEN AND THE JUDGES.

21a

APPENDIX B
WILLIAM ALAN PESNELL AND
CHRISTOPHER HOLDER
VERSUS
JILL SESSIONS, CLERK OF COURT, ET AL
NUMBER 151,118
26th JUDICIAL DISTRICT COURT
BOSSIER PARISH, LOUISIANA
JUDGMENT
For the reasons set forth in written ruling of
even date herewith, it is therefore:
ORDERED, ADJUDGED AND DECREED that
there be judgment herein in favor of defendants and
against plaintiffs, sustaining the exceptions of no
cause of action filed herein, to the extent they are
based on La. R.S. 44:4(47).
Plaintiffs are cast with all costs of these
proceedings.
JUDGMENT READ, RENDERED
SIGNED THIS 18th day of August, 2018.

22a

AND

/s/
ERIC R. HARRINGTON
DISTRICT JUDGE AD HOC
Notice to all counsel of record
[DATE STAMP]
FILED
AUG 20 2018
/s/
DEPUTY CLERK
26TH JUDICIAL DISTRICT COURT
BOSSIER PARISH, LOUISIANA

23a

WILLIAM ALAN PESNELL AND
CHRISTOPHER HOLDER
VERSUS
JILL SESSIONS, CLERK OF COURT, ET AL
NUMBER 151,118
26th JUDICIAL DISTRICT COURT
BOSSIER PARISH, LOUISIANA
[DATE STAMP]
FILED
AUG 20 2018
/s/
RULING
This matter is before the court on plaintiffs'
petition to declare a provision of the Public Records
Law unconstitutional and to compel production of an
audio recording of a trial. This court sustained several
exceptions and plaintiffs appealed. The Second Circuit
Court of Appeal reversed some of the rulings, and
remanded the case back to this court for a ruling on
the constitutionality of La. R. S. 44:4(47), stating that
''The petition states a cause of action upon which relief
might be granted once the ruling on the
constitutionality of the statute is rendered."
Factual Background

24a

William Alan Pesnell is Christopher Holder's
attorney in connection with succession proceedings for
the estate of his mother, Donna Holder.
Mr. Holder was found guilty of the murder of his
mother after a trial in the 26th Judicial District Court.
Mr. Holder appealed his conviction, was unsuccessful,
and that conviction is now final subject to any
post-conviction relief that he may be eligible for. Mr.
Holder and/or his father suggested that the trial
transcript is inaccurate, and disagreed with the
contents of it, particularly with regards to statements
made by the District Attorney during his closing
argument. Plaintiffs suggest that those statements
they allege the District Attorney made ultimately
caused or created prejudice in the mind of the jury.
Plaintiffs further allege that the succession
proceedings were impacted by the results of the
criminal trial, in that Mr. Holder was prohibited from
inheriting or collecting insurance proceeds from his
mother's estate.
Mr. Pesnell, on behalf of himself and his client,
made a request under the Louisiana Public Records
Law (La. R.S. 44:1, et seq.) to the 26th Judicial District
Court for the "data file" from Christopher Holder's
criminal trial. Factually, Mr. Pesnell was requesting
the unedited, uncensored audio recording of the trial.
Mr. Pesnell also requested permission to review and
copy the audio, and to have it tested by an expert to
confirm that it had not been altered or manipulated.
Mr. Pesnell's request was denied, pursuant to La. R.S.
44:4(47) and a local court rule regarding audio
25a

recordings. Mr. Pesnell and Mr. Holder then filed the
petition at issue herein.
Law and Analysis
The legislative power of the state
is vested in the legislature. La. Const.
Art. III, Section 1. In its exercise of the
entire legislative power of the state, the
legislature may enact any legislation that
the state constitution does not prohibit.
Thus, to hold legislation invalid under
the constitution, it is necessary to rely on
some particular constitutional provision
that limits the power of the legislature to
enact such a statute. (citation omitted).
Laws enacted by the legislature are
presumed to be constitutional and the
constitutionality of statutes should be
upheld whenever possible (citation
omitted).Further, "It is not enough (for a
person challenging a statute to) show
that the constitutionality (of the statute)
is fairly debatable, but, rather, it must be
shown clearly and convincingly that it
was the constitutional aim to deny the
legislature the power to enact the
statute." (citation omitted). Louisiana
Public Facilities Authority v. Foster,
2001-CA-0009, (La. 9/18/2001), 795 So.2d
288, 298.
The party challenging the validity
26a

of a statute generally has the burden of
proving unconstitutionality ... to satisfy
this burden, the challenging party must
cite the specific constitutional provision
that prohibits the legislative action. State
v. Granger, 07-2285 (La. 5/21/08), 982
So.2d 779.
The public's right to have access to the public
records of governmental bodies is a fundamental right,
and it is guaranteed by the state constitution in Article
XII, Section 3: "No person shall be denied the right to
observe the deliberations of public bodies and examine
public documents, except in cases established by law."
In La. R.S. 44:1 the Louisiana legislature enacted the
Public Records Law, broadly, granting the public the
right to observe and examine public records and
proceedings, with exceptions.
The constitutional right to examine public
records must be construed liberally and unrestricted
access to the records, and that access may be denied
only when a law specifically and unequivocally
provides otherwise. Does v. Foti, 11-0014, (a. App. 1st
Cir. 12/08/11), 81 So.3d 101,107, writ denied,
2012-0057 (La. 3/2/12), 84 So.3d 537.
Any person of the age of majority may inspect,
copy, reproduce, and/or obtain reproduction of any
public record. (R.S. 44:32(A); R.S. 44:31(8)). A
custodian of public records is prohibited from making
inquiries of any person who applies for a public record,
except an inquiry as to the age and identification of the
27a

person. (R.S. 44:32(A)).
Pursuant to the specific authority in Article III,
Section 1 of the Louisiana Constitution, "... except as
provided by law.", the legislature has created hundreds
of exceptions to the public records law in La. R.S.
44:4.1. In R.S. 44:4(47)(a), the legislature created other
exceptions to the Public Records Law relating to courts
and court records and proceedings. Subparagraph (a)
states that the Public Records Law shall not apply:
(a) To the physical medium or contents of
any electronic storage device including
any compact disc, digital video disc, jump
drive, audio or video cassette tape or
another type of electronic storage device,
or to any shorthand or longhand notes or
writings of stenotype paper tapes in the
custody or under the control of a judge,
(b) clerk of court, official court reporter,
deputy official court reporter, or certified
electronic reporter and which are
produced, made, or used by an official
court reporter, deputy official court
reporter, freelance reporter, or certified
electronic reporter in any court of record
of the state during any proceedings
before that court to report the
proceedings or for the purpose of
transcribing into typewriting those
portions of the proceedings required by
law or by the court to be transcribed.
28a

Plaintiffs argue that the exception denies them
certain rights that rise to the level of constitutional
violations. However, the Public Records Law does not
contemplate the relationship of the requester to the
requested record, nor does the law distinguish between
the individual making the request and the general
public. In fact, the law specifically prohibits custodians
from inquiring as to the requester's reason or intent
for seeking public records.
Article 1, Section 5 of the Louisiana
Constitution states "Every person shall be secure in
his person, property, communications, houses, papers
and effects against unreasonable searches, seizures, or
invasions of privacy." This right to privacy applies only
when one has a reasonable expectation of privacy in
the matter sought to be protected. In order for the
expected privacy to be reasonable and thus
constitutionally protected, the expectation must not
only be an actual or subjective expectation of privacy,
but also of a type that society at large is prepared to
recognize as being reasonable.
Court proceedings are open to the public.
Therefore, it follows that there is no reasonable
expectation of privacy in statements voluntarily
uttered aloud in open court. On the other hand,
statements intended to be private, which are
inadvertently captured on sensitive court recording
equipment, should be protected by the constitutional
right to privacy.
Because of that, disclosure of the raw,
29a

uncensored and unedited audio recording to Mr.
Holder and his attorney would render the audio
recording of the Holder murder trial a public record,
subject to disclosure to any person requesting access to
the record. Additionally, disclosure of the audio
recording of those court proceedings would potentially
make all audio records of all court proceedings subject
to disclosure to any person requesting access to them.
That would mean every comment picked up by a
recording device, even whispered conversations
between a defendant and his counsel, or sidebar
conferences with the judge that were not intended to
be recorded, would become a public record. That is
almost certainly why the official record of a court
proceeding is a certified transcript, and not an
unedited, uncensored recording.
In their pre-hearing memorandum, plaintiffs
cite Labat v. Larose, 2011-CA-0957 (1st Cir. 12/31/11),
an unpublished opinion, in which the court of appeal
allowed access to an audio recording of a court
proceeding. Thereafter, in 2012, R.S. 44:4(47) was
added to the Public Records Law.
One of plaintiffs' arguments is that R.S. 44:4(47)
is overly broad in its exclusion, effectively denying
plaintiffs their rights while protecting the privacy
rights of others. In St. Mary Anesthesia Associates, Inc.
v. Hospital Service District, et al, 2001 CA 2852, (La.
1st Cir. 12/20/2002), writ den. 3/28/2001, 836 So.2d
379, the court was faced with a case factually different
from the one at hand, but nevertheless addressing
challenges that certain statutes were overly broad and
30a

therefore violative of Article XII, Section 3 of the
Louisiana Constitution, which states that "No person
shall be denied the right to observe the deliberations
of public bodies and examine public documents, except
in cases established by law." The Open Meetings Law
did establish exceptions pursuant to the authority of
the article, and they were being challenged as overly
broad.
The court in St. Mary Anesthesia stated that:
Thus, the legislature is clearly
empowered to fashion exceptions to the
general right of public access. The central
issue in this appeal, of course, is the
permissible scope of such exceptions. (p.
387)
As correctly observed by one
writer, "the plain language of Article XII,
Section 3 of the state constitution
empowers·the legislature to exempt from
disclosure any information it wishes."
(citation omitted) Another commentator
has even more forcefully asserted that
"the subject is under legislative control,
and the constitutional provision is merely
a precatory admonition." (citation
omitted). Regardless of whether the Act
is viewed as creating a de facto
exemption of hospital service districts or
only broad exclusions in their favor, it is
a permissible exercise of the legislative
31a

power granted in Section 3's proviso.
...
For a statute to be found to be
substantially overbroad is subject to
facial invalidation. It is "strong medicine,
to be applied sparingly and only as a last
resort." (citation omitted). (p. 388)
The court went on to find the substantial
overbreadth doctrine not applicable, and noted that
whether the act at issue should have been drawn more
narrowly was an issue "... which addresses itself to the
sound discretion of the legislature as the people's
elected representatives." (p. 389)
The court then held that:
... Stated more concisely, if a
statute is broad enough to be applied
both validly and invalidly, the valid
interpretation should be used when it
conforms to the legislative intent or
purpose of the statute. (citation omitted)
p.389
...
Our review of the Act, in light of
its avowed public purpose, convinces us
that its terms are not so broad as to
warrant the finding that they violate
plaintiffs' rights both bestowed and
limited by the Section.
32a

Conclusions
Petitioners make argument regarding their
alleged need for the records based on due process and
other constitutional rights. However, a records
custodian is prohibited from inquiring as to a person's
reason for requesting public records under the Public
Records law, which provides that the custodian "shall
make no inquiry of any person who applies for a public
record, except an inquiry as to the age and
identification of the person ..." See La. R.S. 44:32(A).
The judges here had no choice but to apply R.S.
44:4(47) to the request made by the petitioners herein,
as it would be applied to any other member of the
public.
Importantly, La. R.S. 4:44(47) validly serves to
protect the constitutional privacy rights of all litigants,
including plaintiffs.
The court does not find the exclusion section
overly broad, but if so, it conforms to the intent and
purpose of the statute, and is therefore valid.
Accordingly, plaintiffs have not met their heavy
burden articulated in Louisiana Public Facility
Authority v. Foster, Id., and have failed to prove that
La. R.S. 44:4(47) is unconstitutional as applied to
them, and their petition fails to state a cause of action.
The exceptions of no cause of action based on R.S.
44:4(47) are sustained. Plaintiffs are cast with all costs
of these proceedings

33a

THUS DONE AND SIGNED THIS 18th day of
August, 2018.
/s/
ERIC R. HARRINGTON
DISTRICT JUDGE AD HOC
Copies to all counsel of record

34a

APPENDIX C
STATE OF LOUISIANA
COURT OF APPEAL, SECOND CIRCUIT
430 Fannin Street
Shreveport, LA 71101
(318) 227-3700
[DATE STAMP]
FILED
MAR 05 2018
/s/
DEPUTY CLERK
26TH JUDICIAL DISTRICT COURT
BOSSIER PARISH, LOUISIANA
David G. Sanders
LOUISIANA DEPT. OF JUSTICE
P. O. Box 94005
Baton Rouge, LA 70804-9005
William Alan Pesnell
THE PESNELL LAW FIRM, APLC
P. O. Box 1794
Shreveport, LA 71166-1794
Emily G Andrews
Asst. Attorney General of LA
P. O. Box 94005
Baton Rouge, LA 70804-9005
Eric R. Harrington
35a

Ad Hoc Judge - 26th JDC
P. O. Box 310
Benton, LA 71006
James Dell Southerland
SOUTHERLAND & SIMMONS
P. O. Box 338
Benton, LA 71006-0000
Patrick Richmond Jackson
PATRICK R. JACKSON, APLC
4442 Viking Drive, #100
Bossier City, LA 71111
Jill Sessions
Bossier Parish Clerk of Court
P. O. Box 430
Benton, LA 71006-0430
NOTICE OF JUDGMENT AND
CERTIFICATE OF MAILING
February 28, 2018
DOCKET Number: CA 17-51871
WILLIAM ALLEN PESNELL AND
CHRISTOPHER WAYNE HOLDER
VERSUS
JILL SESSIONS, CLERK OF COURT,
JENNIFER BOLDEN, CERTIFIED DIGITAL
36a

REPORTER, AND THE JUDGES OF THE
26TH JUDICIAL DISTRICT COURT:
MICHAEL O. CRAIG, JEFF R. THOMPSON,
JEFF COX, E. CHARLES JACOBS,
MICHAEL NERREN, AND PARKER O. SELF
NOTICE IS HEREBY GIVEN that the attached
judgment and written opinion was rendered this date
and a copy was mailed to the trial judge, the trial court
clerk, all counsel of record and all parties not
represented by counsel as listed above.
FOR THE COURT
Clerk of Court

37a

Judgment rendered February 28, 2018.
Application for rehearing may be filed
within the delay allowed by Art. 2166,
La. C.C.P.
No. 51,871-CA
COURT OF APPEAL
SECOND CIRCUIT
STATE OF LOUISIANA
WILLIAM ALAN PESNELL
Plaintiffs-Appellants
and CHRISTOPHER HOLDER
versus
JILL SESSIONS, CLERK OF Defendants-Appellees
COURT, ET AL.
Appealed from the
Twenty-Sixth Judicial District Court for the
Parish of Bossier, Louisiana
Trial Court No. 151,118
Honorable Eric R. Harrington, Judge (Ad Hoc)
THE PESNELL LAW FIRM, A.P.L.C.
By: Billy R. Pesnell
Counsel for Appellant,
J. Whitney Pesnell
Christopher Wayne
W. Alan Pesnell
Holder
WILLIAM ALAN PESNELL

38a

In Proper Person

JEFF LANDRY
Attorney General

Counsel for Appellees,
Judges of the 26th
Judicial District Court

LOUISIANA DEPARTMENT
OF JUSTICE
By: David G. Sanders
Assistant Attorney General
LOUISIANA DEPARTMENT Counsel for Appellee,
OF JUSTICE
The State of Louisiana
By: Emily G. Andrews
Assistant Attorney General
PATRICK R. JACKSON
Bossier Parish Attorney

Counsel for Appellee
Jennifer Bolden,
Certified Digital
Reporter

JAMES D. SOUTHERLAND

Counsel for
Jill Sessions,
Clerk of Court, 26th
Judicial District Court

*****
Before BROWN, PITMAN, and STEPHENS, JJ.
PITMAN, J.
In this suit brought under the Public Records
Law, Plaintiffs William Alan Pesnell ("Pesnell") and
Christopher Holder ("Christopher") appeal the ruling
39a

of the trial court which sustained exceptions of no
cause of action filed by Jill Sessions, Clerk of Court of
the 26th Judicial District Court; Jennifer Bolden,
Court Reporter; and Judges Michael O. Craig, Jeff R.
Thompson, Jeff Cox, E. Charles Jacobs, Michael
Nerren, and Parker O. Self (collectively, "the Judges"),
finding they were not custodians of records sought in
this case. Plaintiffs also appeal the ruling of the trial
court which sustained exceptions of no cause of action
and lack of subject matter jurisdiction filed by the
State of Louisiana through the Office of the Attorney
General in response to their challenge to the
constitutionality of the Public Records Law. For the
following reasons, the judgment of the trial court is
affirmed in part, reversed in part and remanded.
FACTS
Christopher was found guilty of the second
degree murder of his mother, Donna Green Holder.
After the verdict was rendered, his uncle (Donna
Holder's brother) opened the intestate succession of his
sister, the victim, and asked that Christopher be
declared unworthy and excluded from any inheritance,
life insurance benefits or any other benefits to which
he would have been entitled had he not caused his
mother's death. The Pesnell Law Firm represented
Christopher in the succession proceedings; Christopher
was found unworthy to inherit.
Both the criminal verdict and the civil judgment
were appealed to this court and were affirmed. See
State v. Holder, 50,171 (La. App. 2 Cir. 12/9/15), 181
40a

So. 3d 918, writ denied, 16-0092 (La. 12/16/16), 211 So.
3d 1166, and 16-0056 (La. 12/16/16), 212 So. 3d 1176;
and Succession of Holder, 50,824 (La. App. 2 Cir.
8/10/16) 200 So. 3d 878, writ denied, 16-1694, (La.
12/16/16), 212 So. 3d 1169. These judgments are now
final.
Pesnell was hired by Christopher's father, Gary
Holder, to review the criminal record on Christopher's
behalf, allegedly to aid him in his defense in both the
criminal and civil appeals. Pesnell claims that while
the cases were pending on appeal, "it came to the
attention of undersigned counsel that certain persons
who were present at that trial (the criminal trial) ...
believed that the transcript of that trial, which was
presented to this Court, was not correct." Specifically,
he has an affidavit from Gary Holder (the "Holder
affidavit"), which states that due to his son's
debilitating mental illness, he has attempted to aid his
son's defense. Gary Holder claimed to have been
present for each phase of the trial from beginning to
end. In his affidavit, he avers that during the closing
arguments of his son's murder trial, he was present in
open court and heard the district attorney making
incendiary remarks to the jury about Christopher's
mental state, the fact that Christopher may be
released in the future if found not guilty by reason of
insanity and that Christopher's father would take
whatever steps to get Christopher released early by
pulling strings with officials and/or physicians in order
to have him released from any facility to which he may
be sent for psychiatric treatment or observation. Gary
Holder also stated in the affidavit that Rick Fayard,
41a

Christopher's attorney in the criminal matter,
vehemently objected and described the remarks as the
most unethical move that he had seen in all his years
of practicing law. The Holder affidavit states that he
thought this colloquy and objection to be very
important in the matter and ordered a transcript of
the proceedings. He also stated that when he received
that transcript, he was shocked to find that the
objection was not in the transcript and, further, that
the language used by the district attorney had been
changed from what he had heard in the courtroom.
The Holder affidavit also stated that, in his
capacity as Christopher's curator, and pursuant to
having his power of attorney, Gary Holder hired
Pesnell to file a civil appeal in the succession
proceeding of Christopher's mother and to help obtain
information and facts concerning matters related to
post-conviction relief efforts. In an effort to investigate
Gary Holder's claims concerning the absence from the
transcript of the language used by the district
attorney, Pesnell began trying to acquire the recording
of the criminal trial so that he could compare the
transcript with the recording.
Pesnell attempted to get the recordings from the
trial court by various methods, including a letter to
Sessions, Clerk of Court of the 26th Judicial District
Court, requesting a copy of the data file in the criminal
case. Sessions responded, designating the court
reporter, Jennifer Bolden, as the custodian of the
record. Pesnell then sent a letter to Bolden requesting
the data file. That letter was apparently referred to
42a

the 26th Judicial District Court Judges' office, and he
received a response from Melissa Fox, Court
Administrator and Senior Staff Attorney, stating that
La. R.S. 44:4(47) excluded the record from being
public. Ms. Fox also referred Pesnell to a local court
policy, which stated that no one was allowed to listen
to courtroom recordings since, at times, an attorney
speaking to his client might be picked up by the
microphone. The policy exists so that attorney-client
privilege is protected. The policy stated that exceptions
could be made at the discretion of the trial court.
However, in this case, Pesnell's request for the alleged
public record was denied.
Pesnell sent a letter to Chief Judge of the 26th
Judicial District Court Parker O. Self and to Judge
Michael Nerren (trial judge who presided over the
criminal action) requesting access under the local
policy. Ms. Fox responded again, denying his request
and informing him that any problem with the record
should be submitted to the court of appeal.
Because they had been unsuccessful in their
attempt to acquire the recording from which the
transcript was made, on September 22, 2016, while the
criminal matter was pending appeal to the Louisiana
Supreme Court, Plaintiffs filed a petition against
Defendants under the Public Records Law, La. R.S.
44:1, et seq., seeking recordings "for inspection and
testing" from the criminal trial at which Christopher
had been found guilty. They subsequently amended
their petition and added the State of Louisiana as a
defendant and sought a declaration that a provision of
43a

the Public Records Law was unconstitutional in
substance and as applied.
The Judges filed an exception of no cause of
action seeking a declaration that the recordings were
not subject to the Public Records Law and cited La.
R.S. 44:4(47), the constitutionality of which was
eventually challenged by Plaintiffs. Sessions filed an
exception of no cause of action, alleging that under the
Public Records Law, the clerk of court is not the
custodian of the records sought. Bolden also filed an
exception of no cause of action, alleging that she is not
the custodian of the records sought and raised other
claims set forth in the Judges' exception.
The state filed an exception of lack of subject
matter jurisdiction and no cause of action, claiming
that it was not the custodian of the document sought
and that it was improper for it to be named by itself on
a claim that a statute was unconstitutional.
The trial court bifurcated the issues pertaining
to Sessions, Bolden and the Judges on the exceptions
of no cause of action from those of the claims brought
against the state and ordered briefing on the issue of
the proper defendant in a claim that the statute was
unconstitutional. It found that Sessions and Bolden
were not custodians of the records sought, but that the
Judges were and that Plaintiffs had no cause of action
against them as custodians since the records sought
were excluded from coverage under the Public Records
Law pursuant to La. R.S. 44:4(47). It sustained the
exceptions of no cause of action filed by Sessions,
44a

Bolden and the Judges, and Plaintiffs' case was
dismissed as to them. However, the judgment reserved
for a later date Plaintiffs' claims that La. R.S. 44: 4(47)
and the local rule of the 26th Judicial District Court
are unconstitutional on their face or as applied and
ordered the Judges, the state and Plaintiffs to brief the
issue of the identity of the proper defendant in the
lawsuit.
Plaintiffs filed a motion for new trial, which was
set for hearing on the same date as the state's
exceptions. In March 2017, the trial court reconvened
and denied the motion for new trial. It also heard the
state's exceptions of lack of subject matter jurisdiction
and no cause of action. The state's brief asserted that
the dismissal of the public records claim mooted the
constitutional issue and that it had no obligation to
Plaintiffs with regard to the production of the
recording. The Judges adopted that argument, and the
trial court sustained the state's objections of no cause
of action and lack of subject matter jurisdiction.
Plaintiffs have filed this appeal seeking review
of the trial court's sustaining the exceptions of no
cause of action of all parties and the exception of lack
of subject matter jurisdiction filed by the state and the
dismissal of their case.
DISCUSSION
Plaintiffs argue that the trial court erred in
bifurcating the issues and in sustaining the exceptions
of no cause of action without ruling on the
45a

constitutionality of the statute before using that
statute as a basis for sustaining the exceptions.
Plaintiffs argue it was error for the trial court to
have sustained the exceptions of no cause of action and
to bifurcate the constitutionality of the statute issue
since, in doing so, it "left a naked constitutional claim
unsupported by the underlying dispute." They further
argue that the trial court dismissed the very part of
the pleading that disclosed the controversy between
the parties. They claim that Christopher is in the
post-conviction relief period on a murder conviction
and is entitled to due process, and that post-conviction
relief is available to defendants if the conviction was
obtained in violation of the Constitutions of the United
States or the State of Louisiana.
Plaintiffs also argue that the trial court erred in
sustaining the exception of no cause of action filed by
Bolden since she is statutorily required to retain,
indefinitely, all notes and tape recordings of a criminal
case. They assert that if the record of the trial is fully
transcribed, the court reporter must retain all notes
and tape recordings which have been fully transcribed
for a period of not less than two years after
transcription is completed. La. R.S. 15 :511(A). They
contend that pursuant to this statute, Bolden became
the "custodian" of the records as defined in the Public
Records Law.
Sessions claims that the trial court correctly
sustained the exception of no cause of action since La.
R.S. 44:35 requires that the person seeking the right
46a

to inspect or reproduce an item must have been denied
that right by the custodian of the data requested. She
argues that Plaintiffs were clearly informed that she
did not have custody or control of the information and
that the court reporter is required to retain and
maintain all notes and tape recordings, although the
recordings shall remain the property of the court. For
these reasons, she asserts that the trial court properly
sustained the exception of no cause of action since the
antecedent condition, i.e., that the record is held at the
office of the official from whom the records are
requested, cannot be met.
Bolden cites La. R.S. 15:511(B) and argues that
it specifically states that the recordings shall be the
property of the court in which the case was heard. She
claims that under the statute, she had the duty only to
retain and maintain such recordings, but was not the
custodian. She also argues that she did not have the
requested information in her possession and had no
control over it. For these reasons, she claims the trial
court correctly sustained the exception of no cause of
action.
The Judges argue that Plaintiffs made a request
for the recording from Bolden and that the judicial
administrator of the 26th Judicial District Court
declined the request since the records sought were not
public records under the Public Records Law. La. R.S.
44:4(47). The judicial administrator referred Plaintiffs
to the court's policy regarding audio recordings of court
proceedings, which generally prohibit listening to any
recording of any court proceeding, except under
47a

extraordinary circumstances and with court
permission. The Judges assert that they are not the
"custodian" of the records as defined in the law, which
states the custodian is the public official or head of any
public body having custody or control of public records,
or a representative specifically authorized by him to
respond to requests to inspect any such public record.
They argue that while district court judges are public
officials, they are not the head of any public body.
The Judges further argue that because the
Public Records Law does not apply to the recording
requested, Plaintiffs have no right to it. Access could
be granted only under the local court rule, which
requires permission from the court. Plaintiffs sought
permission from the trial court to listen to the
recordings, but it denied their request and further
advised that any correction of the record should be
pursued at the appellate court level under La. C.C.P.
art. 2132, which states that a record on appeal which
is incorrect or contains misstatements, irregularities
or informalities, or which omits a material part of the
trial record, may be corrected even after the record is
transmitted to the appellate court, by the parties by
stipulation, by the trial court or by the order of the
appellate court. All other questions as to the content
and form of the record are to be presented to the
appellate court. In this case, the criminal case was
pending in the appellate court at the time the requests
for the recording was made. The Judges also claim
that Plaintiffs should have sought relief from the
appellate court. Therefore, they argue, the trial court
correctly sustained the exception of no cause of action.
48a

With regard to Plaintiffs' constitutional
challenge of the designation of the recording under the
Public Records Law as an exception to the law, the
Judges argue that the constitutional challenge should
not have been brought as a declaratory judgment claim
in a separate lawsuit, but should have been brought up
in the underlying criminal case. They assert that the
sustaining of the exceptions of no cause of action
rendered any further proceedings in this matter moot.
After the trial court sustained the exceptions of
no cause of action of Sessions, Bolden and the Judges,
it addressed the state's brief in support of the
exceptions of no cause of action and lack of subject
matter jurisdiction. The state's brief argued that once
the trial court found Plaintiffs had no right to the
recording requested under the public records action,
the constitutional issue became moot and ceased to be
a justiciable controversy in which to decide the
constitutionality of the statute. It contended that when
a case is moot, there is no subject matter on which the
judgment can operate.
The state further argues that it was not a
proper defendant in the case since Plaintiffs' petition
makes no factual allegations against it, and it is not
proper to make it a defendant solely on the basis that
the constitutionality of a statute is being challenged.
A constitutional challenge may be made by a party in
a case where there is an adverse party and the
existence of a controversy as envisioned by the
Louisiana Supreme Court's definition of "justiciable
controversy." There is no need to join a special party or
49a

defendant when one challenges the constitutionality of
a statute. Absent an adverse party, there is no cause
of action to simply challenge the constitutionality of a
statute because a litigant believes the statute's
constitutionality is doubtful. It contends that the
proper party to sue under the Public Records Law is
the custodian of the record, and it is not such a
custodian in this case.
Public Records Law
La. R.S. 44:1 contains the definitions found in
the Public Records Law and states in pertinent part as
follows:
A(1) As used in this Chapter, the phrase
"public body" means any branch,
department, office, agency, board,
commission, district, governing
authority, political subdivision, or any
committee, subcommittee, advisory
board, or task force thereof, any other
instrumentality of state, parish, or
municipal government, including a public
or quasi-public nonprofit corporation
designated as an entity to perform a
governmental or proprietary function, or
an affiliate of a housing authority.
(2)(a) All books, records, writings,
accounts, letters and letter books, maps,
drawings, photographs, cards, tapes,
recordings, memoranda, and papers,
50a

and all copies, duplicates, photographs,
i n c l u d i n g m i c r of i l m , o r o t h e r
reproductions thereof, or any other
documentary materials, regardless of
physical form or characteristics,
including information contained in
electronic data processing equipment,
having been used, being in use, or
prepared, possessed, or retained for use
in the conduct, transaction, or
performance of any business, transaction,
work, duty, or function which was
conducted, transacted, or performed by or
under the authority of the constitution or
laws of this state, or by or under the
authority of any ordinance, regulation,
mandate, or order of any public body or
concerning the receipt or payment of any
money received or paid by or under the
authority of the constitution or the laws
of this state, are "public records",
except as otherwise provided in this
Chapter or the Constitution of
Louisiana.
...
(3) As used in this Chapter, the word
"custodian" means the public official or
head of any public body having custody
or control of a public record, or a
representative specifically authorized by
him to respond to requests to inspect any
such public records.
51a

(Emphasis added.)
La. R.S. 44 :4(47) states:
This Chapter shall not apply:
...
(47)(a) To the physical medium or
contents of any electronic storage device
including any compact disc, digital video
disc, jump drive, audio or video cassette
tape, or any other type of electronic
storage device, or to any shorthand or
longhand notes or writings or stenotype
paper tapes in the custody or under the
control of a judge, clerk of court, official
court reporter, deputy official court
reporter, or certified electronic reporter
and which are produced, made, or used
by an official court reporter, deputy
official court reporter, freelance reporter,
or certified electronic reporter in any
cowi of record of the state during any
proceedings before that court to report
the proceedings or for the purpose of
transcribing into typewriting those
portions of the proceedings required by
law or by the court to be transcribed.
Exceptions of No Cause of Action
The peremptory exception of no cause of action
tests the legal sufficiency of the petition by
52a

determining whether the law affords a remedy on the
facts alleged in the petition. Gipson v. Fortune, 45,021
(La. App. 2 Cir. 1/27/10), 30 So. 3d 1076, writ denied,
10-0432 (La. 4/30/10), 34 So. 298. The exception is
triable on the face of the petition; and, for the purpose
of determining the issues raised by the exception, the
well-pleaded facts in the petition must be accepted as
true. Fink v. Bryant, 01-0987 (La. 11/28/01), 801 So. 2d
346; Johnson v. City of Coushatta, 46,914 (La. App. 2
Cir. 1/25/12), 86 So. 3d 32. Louisiana recognizes a right
to receive copies of public documents and records. La.
Const. art. XII, § 3, provides, "No person shall be
denied the right to ... examine public documents,
except in cases established by law." Johnson, supra.
Custodian of the record
La. C.C.P. art. 251(A) states that the clerk of
court is the legal custodian of all of its records and is
responsible for their safekeeping and preservation. He
may issue a copy of any of these records, certified by
him under the seal of the court to be a correct copy of
the original.
La. R.S. 15:511 concerns court reporters and the
retention of notes and recordings in criminal cases and
states in pertinent part as follows:
A. The court reporter shall retain
indefinitely all notes and tape recordings
of a criminal case. However, if the record
of the trial or other criminal proceeding
is fully transcribed, the court reporter
53a

shall retain all notes and tape recordings
which have been fully transcribed for a
period of not less than two years after
transcription is completed [.]
B. The notes and tape recordings of any
criminal case which are retained by a
court reporter pursuant to the provisions
of this Section shall be the property of
the court in which the case was heard.
The court reporter shall have the duty to
retain and maintain all such notes and
tape recordings pursuant to the
provisions of this Section, although the
notes and tape recordings shall remain
the property of the court.
There is only one reported case interpreting La.
R.S. 15:511, but it is not instructive on the issue of
who might be the custodian of the recording of a
criminal trial. In Marler v. 22nd Judicial Dist. Ct.,
Parish of Washington, 93-2394 (La. App. 1 Cir.
11/10/94), 645 So. 2d 821, a defendant sought the tape
recordings of his criminal trial for purposes of
post-conviction relief and alleged that although he had
been provided with a copy of the transcript of his trial,
the tape recordings were crucial to his PCR, and the
right to the tapes was protected by the Constitutions
of the United States and the State of Louisiana.
Although the 22nd Judicial District Court is named as
a defendant in the suit, the Washington Parish DA
appears as the defendant in the list of parties in the
appellate opinion. In Marler, the appellate court
54a

determined that the defendant pursuing
post-conviction relief was not entitled to a tape
recording of his trial. He had been given a full
transcript of his trial, and the period during which the
court reporter was required to retain tape recording
had expired.
Applying the rules pertaining to exceptions of no
cause of action, this court must accept the well-pleaded
facts of Plaintiffs' petition as true. Although it is
unclear who is the custodian of the recordings sought,
we find that Plaintiffs have stated a cause of action
against the Clerk of Court, who is the legal custodian
of the public records under La. C.C.P. art. 251; the
court reporter, who has the duty to maintain the
record under La. R.S. 15:511; and the court which
owns the records pursuant to La. R.S. 15:511(B). Since
the policy of the 26th Judicial District Court gives
control over access to the recording sought to the
Judges, we find the Plaintiffs have also stated a cause
of action as to them. For the foregoing reasons, the
assignments of error related to the trial court's
sustaining of the exceptions of no cause of action of the
Clerk of Court, the court reporter and the Judges, have
merit and are hereby reversed.
Since the State of Louisiana is not the custodian
of the public record sought by the Plaintiffs, we find
the trial court correctly sustained the exception of no
cause of action it filed. Further, the fact that Plaintiffs
alleged that La. R.S. 44:4(47) is unconstitutional does
not create any duty for the "State of Louisiana" to
come forward and defend the validity of the statute.
55a

There must be a justiciable controversy for the state to
be involved as a defendant; and when that is present
in a lawsuit, the Attorney General of the State of
Louisiana is given notice and is allowed to present a
defense of the statute at its discretion. For the
foregoing reasons, the judgment of the trial court
sustaining the state's exception of no cause of action is
affirmed.
Constitutionality of the Statute
Legislation is deemed a solemn expression of
legislative will. La. C.C. art. 2. Statutes are presumed
to be constitutional and their constitutionality will be
preserved "when it is reasonable to do so." State v.
Granger, 07-2285 (La. 5/21/08), 982 So. 2d 779, quoting
State v. Fleury, 01-0871 (La. 10/16/01), 799 So. 2d 468.
Since statutes are presumed to be constitutional, "the
party challenging the validity of a statute generally
has the burden of proving unconstitutionality." State
v. Granger, supra, quoting Moore v. RLCC Techs., Inc.,
95-2621 (La. 2/28/96), 668 So. 2d 1135. To satisfy this
burden, the challenging party must cite the specific
constitutional provision that prohibits the legislative
action. State v. Granger, supra; State v. Fleury, supra;
Rhone v. Ward, 45,008 (La. App. 2 Cir. 2/3/10), 31 So.
3d 591, writ denied, 10-0474 (La. 4/30/10), 34 So. 3d
291.
In the case at bar, we have found that Plaintiffs'
petition stated a cause of action upon which some
relief might be granted. Such relief is predicated upon
a trial court's threshold decision concerning the
56a

constitutionality of the statute invoked by Plaintiffs for
production of the recordings sought. It is now
incumbent upon Plaintiffs to prove to the trial court
that La. R.S. 44:4(47) is unconstitutional as it is
applied to them and that they are entitled to the
recording sought. For these reasons, the matter is
remanded for a ruling on the constitutionality of the
statute and for further relief if necessary.
CONCLUSION
The judgment of the trial court sustaining the
exception of no cause of action filed by the State of
Louisiana is affirmed. The judgment of the trial court
sustaining the exceptions of no cause of action filed by
Defendants Jill Sessions, Clerk of Court; Jennifer
Bolden, Certified Digital Reporter; and the Judges of
the 26th Judicial District Court, Michael O. Craig, Jeff
R. Thompson, Jeff Cox, E. Charles Jacobs, Michael
Nerren and Parker O. Self; is reversed. The petition
states a cause of action upon which relief might be
granted once the ruling on the constitutionality of the
statute is rendered. The matter is remanded for
further proceedings. Costs shall be assessed by the
trial court at the issuance of a final judgment.
AFFIRMED IN PART, REVERSED IN PART
AND REMANDED.

57a

NOTICE OF JUDGMENT
TWENTY-SIXTH JUDICIAL DISTRICT
PARISH OF BOSSIER
STATE OF LOUISIANA
WILLIAM ALAN PESNELL ET AL
VS
JILL SESSIONS CLERK OF COURT ET AL.
DOCKET NUMBER: C-151118
TO:

WILLIAM ALAN PESNELL
INDIVIDUALLY AND AS ATTORNEY OF
RECORD FOR:
CHRISTOPHER HOLDER
H.C. BECK BLDG.
400 TRAVIS STREET, SUITE 1100
SHREVEPORT, LA
71101
YOU ARE HEREBY NOTIFIED that on 13th
day of December, 2016 a JUDGMENT was filed in the
above numbered and entitled matter. A certified copy
of said JUDGMENT is hereby annexed and made a
part hereof.
WITNESS MY OFFICIAL HAND AND SEAL
OF OFFICE at Benton, Bossier Parish, Louisiana on
DECEMBER 13, 2016.
58a

JILL M. SESSIONS, CLERK OF COURT
/s/
Deputy Clerk
26th Judicial District Court
Bossier Parish, Louisiana
I HEREBY CERTIFY that a copy of the above and
foregoing notice and attached
JUDGMENT
has been forwarded to all counsel of record, or party if
not represented by counsel, by depositing same in the
United States Mail with sufficient postage attached,
on DECEMBER 13, 2016.
JILL M. SESSIONS, CLERK OF COURT
/s/
Deputy Clerk
26th Judicial District Court
Bossier Parish, Louisiana

59a

APPENDIX D
NO. 151118
26TH JUDICIAL DISTRICT COURT
BOSSIER PARISH, LOUISIANA
[DATE STAMP]
FILED
DEC 13 2016
SARA E. HALPHEN
DEPUTY CLERK
26TH JUDICIAL DISTRICT COURT
BOSSIER PARISH, LOUISIANA
WILLIAM ALAN PESNELL AND
CHRISTOPHER HOLDER
VERSUS
JILL SESSIONS, CLERK OF COURT
JENNIFER BOLDEN, CERTIFIED DIGITAL
REPORTER AND THE JUDGES OF
THE 26TH JUDICIAL DISTRICT
COURT: MICHAEL O. CRAIG,
JEFF R. THOMPSON, JEFF COX,
E. CHARLES JACOBS, MICHAEL
NERREN AND PARKER O. SELF

60a

JUDGMENT
This exception of no cause of action came to be
heard this day. Present, James D. Southerland,
Attorney for Jill M. Sessions, Clerk of Court of bossier
Parish, Louisiana and William Alan Pesnell, Attorney
representing himself and Christopher Holder. When
after considering the allegations contained in
Plaintiffs' petition, its exhibits, the exception filed on
behalf of the Clerk of Court, and its attached
memorandum, and the arguments of counsel:
IT IS ORDERED, ADJUDGED AND DECREED
that the exception of no cause of action filed on behalf
of the Clerk of Court in this matter be maintained and
that Plaintiffs' proceedings against Jill M. Sessions,
Clerk of Court for Bossier Parish, Louisiana, be
dismissed at Plaintiffs' costs.
2016.

Benton, Louisiana, this 13th day of December
/s/
JUDGE AD HOC
Eric R. Harrington

APPROVED:
/s/
James D. Southerland
/s/
William Alan Pesnell
61a

[STAMP]
A TRUE COPY-ATTEST
/s/
DEPUTY CLERK
26TH JUDICIAL DISTRICT COURT
BOSSIER PARISH, LOUISIANA

62a

APPENDIX E
WILLIAM ALAN PESNELL AND
CHRISTOPHER HOLDER
vs.
JILL SESSIONS, CLERK OF COURT,
JENNIFER BOLDEN, CERTIFIED DIGITAL
REPORTER, AND THE JUDGES OF THE 26TH
JUDICIAL DISTRICT COURT: MICHAEL O.
CRAIG, JEFF R. THOMPSON, JEFF COX, E.
CHARLES JACOBS, MICHAEL NERREN AND
PARKER O. SELF
No.2019-C-01040
IN RE: Christopher Holder - Applicant Plaintiff;
William Alan Pesnell - Applicant Plaintiff; Applying
For Writ Of Certiorari, Parish of Bossier, 26th Judicial
District Court Number(s) 151,118, Court of Appeal,
Second Circuit, Number(s) 52,646-CA;
October 15, 2019
Writ application denied.
BJJ
JLW
SJC
JTG
SMC
63a

Hughes, J., would grant.
Supreme Court of Louisiana
October 15, 2019
/s/
Second Deputy Clerk of Court
For the Court

64a

